iq.#.                                            NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS
 4
  o                                        CLOSEOUT MEMORANDUM
     &*,,   a+O


Case Number: A-*:02050035                                                                   Page 1 of 1



        We received an allegation that the subject1used research data in publications that had been
        collected as part of NSF-funded collaborative proposals2 without providing co-authorship to
        other PIS supported under the same awards.

        Our review showed that the subject and PIS had co-authored abstracts and publications that
        incorporated the data produced under the award, including one publication published 3 years
        after the awards closed. The publications and abstracts that did not include the other PIS as co-
        authors were published between 1 and 3 years after the awards closed and focused on data
        collected by the subject specific to the subject's particular research area.

        We learned that the collaborative effort supported under the awards failed shortly after the
        awards closed. We concluded that this was not misconduct in science. Accordingly, this case is
        closed and no further action will be taken.




                           Agent                  Attorney                Supervisor                  AIGI

  Sign / date

                                                                                              OIG Form 2 (2102)
